TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           Electronic Tax Law Assistance
                           Program Responses Are Timely
                               and Generally Accurate



                                         September 2005

                              Reference Number: 2005-40-152




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.




 Web Site          | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            September 14, 2005


 MEMORANDUM FOR: COMMISSIONER, WAGE AND INVESTMENT DIVISION



 FROM:                        Pamela J. Gardiner
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Electronic Tax Law Assistance Program
                              Responses Are Timely and Generally Accurate (Audit # 200540006)

 This report presents the results of our review of the Electronic Tax Law Assistance (ETLA)
 Program. The overall objective of this review was to determine whether the Internal Revenue
 Service (IRS) provides quality service through its ETLA Program, including providing correct
 and timely answers to tax law questions submitted by taxpayers.

 Synopsis
 The ETLA Program is a service provided by the IRS on its public Internet web site, IRS.gov.
 The ETLA Program allows taxpayers to ask the IRS tax law questions through IRS.gov. It is
 available 24 hours a day, 7 days a week, allowing taxpayers to send their questions at a time of
 their choosing. The ETLA Program is geared to answer general tax questions in 17 categories,
 from IRS procedures to child tax credits to the sale or trade of business, depreciation, and rentals.
 The ETLA Program routes the questions to an IRS assistor, who researches the questions and
 responds directly to the taxpayers through electronic mail (email).
 The IRS met its goal of acknowledging tax law questions submitted through the ETLA Program
 and responding to them within 3 business days. For 160 tax law questions anonymously
 submitted through the ETLA Program during the period January 31 through April 8, 2005,
 157 (100 percent) of the 157 questions were acknowledged1 and the IRS responded timely to



 1
  We received responses for only 157 of 160 submitted tax law questions. The IRS has no record of receiving
 3 (2 percent) emails.
                                    Electronic Tax Law Assistance Program
                                  Responses Are Timely and Generally Accurate



140 (89 percent) of the 157 questions. The remaining 17 (11 percent) of 157 responses were
received on the fourth day.
Of the 157 responses, 110 (70 percent) were correct and 47 (30 percent) were incorrect. For the
2005 Filing Season,2 the IRS reported an 86 percent accuracy rate. The IRS accuracy goal for
the ETLA Program for Fiscal Year 2005 is 82 percent. The difference between the Treasury
Inspector General for Tax Administration and IRS results is attributed to the different sampling
methodologies and the sample sizes. Because of these differences, we are not projecting our
results. For the most part, all responses contained general information from tax publications
relating to the subjects of our questions and/or provided references to publications that could be
used for further research. However, the mass of information provided in some responses made it
a challenge to find the specific answers to the questions.
We are making no recommendations because the IRS is reviewing whether it will continue to
provide this service to domestic taxpayers on the IRS home page. It will continue to provide the
service for customers located overseas (i.e., taxpayers living abroad and military personnel)
because this is their only toll-free communication tool.
According to the IRS, it costs more to respond to taxpayers’ questions using the ETLA Program
than the telephone. This is understandable since an IRS assistor must make multiple
assumptions when responding to most questions. The ETLA Program is not a self-service
application and competes with IRS toll-free service for limited resources. As the IRS moves
toward self-service, it needs to revisit the ETLA Program.

Response
IRS management appreciated our acknowledgement that the difference in Treasury Inspector
General for Tax Administration and IRS accuracy rates is due to differences in methodology and
sample size. IRS management stated it is difficult to gauge a taxpayer’s true need for
information and whether it has adequately answered the taxpayer’s specific question but noted
the IRS continues to try to strike a proper balance in all of its taxpayer-focused technical
communications. IRS management was concerned with the number of emails by filing season
and fiscal year as shown in Figure 2 in our report. Specifically, IRS management disagreed with
the volumes we reported for the ETLA Program gross email receipts. They stated the chart used
in the report is not representative of the true volume of taxpayer questions received in the ETLA
Program. The IRS stated that a very high percentage of the gross number of emails we reported
is removed from the ETLA inventory without any action. The IRS provided its own volumes of
email questions. We did not confirm these volumes. Management’s complete response to the
draft report is included as Appendix V.


2
    The filing season is the period from January through mid-April when most individual income tax returns are filed.
                                                                                                                        2
                            Electronic Tax Law Assistance Program
                          Responses Are Timely and Generally Accurate



Please contact me at (202) 622-6510 if you have questions or Michael R. Phillips, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 927-0597.




                                                                                              3
                                      Electronic Tax Law Assistance Program
                                    Responses Are Timely and Generally Accurate




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Tax Law Questions Were Acknowledged and Answered Timely,
          and Answers Were Generally Correct ..........................................................Page 5

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Electronic Tax Law Assistance Program
          Accuracy Rate Results by Category .............................................................Page 13
          Appendix V – Management’s Response to the Draft Report .......................Page 14
                             Electronic Tax Law Assistance Program
                           Responses Are Timely and Generally Accurate




                                      Background

The Electronic Tax Law Assistance (ETLA) Program is a service provided by the Internal
Revenue Service (IRS) on its public Internet web site, IRS.gov. The ETLA Program allows
taxpayers to ask the IRS tax law questions through IRS.gov. It is available 24 hours a day,
7 days a week, allowing taxpayers to send their questions at a time of their choosing. The
ETLA Program is geared to answer general tax questions in 17 categories, from IRS procedures
to child tax credits to the sale or trade of business, depreciation, and rentals. The ETLA Program
routes the questions to an IRS assistor who researches the questions and responds directly to the
taxpayers through electronic mail (email).
In its 2005–2009 Strategic Plan, the IRS states its commitment to providing “excellent service to
taxpayers and enforcing America’s tax laws in a balanced manner.” Its first strategic goal is to
“improve taxpayer service.” The IRS is encouraging
taxpayers to use self-service and electronic services,       The IRS believes it is more cost
such as those provided on IRS.gov and the toll-free          effective to answer tax law
telephone lines. However, the IRS has reported that its      questions over the telephone;
                                                             assistors can answer about 5.5
primary method of providing direct assistance to             telephone calls per hour
customers with tax law questions is through its toll-free    compared to 1.8 ETLA Program
telephone system. It believes the toll-free service is the   inquiries answered per hour.
method preferred by the majority of taxpayers seeking
assistance with a tax issue and provides a more efficient and cost-effective service.
In line with this strategy, for Fiscal Year 2006, the IRS is considering no longer providing the
link to the ETLA Program on the IRS home page. For Fiscal Year 2005, the link to the
ETLA Program is found by clicking:
First.    Contact Us at the bottom of IRS.gov web pages.
Second.   Help with Tax Questions.
Third.    Site Map.
Fourth.   Help with Tax Questions under “Help.”
The IRS provides the following qualifier at the top of this web page:
       This site was created to answer general tax questions. This is NOT the site for
       highly complex tax issues or questions regarding your specific tax account. If you
       need help with an account issue (i.e., any question that requires a name and
       social security number), feel free to contact our office by phone. The toll-free
       number for individual [sic] is 1-800-829-1040. The toll-free number for
       businesses is 1-800-829-4933.

                                                                                            Page 1
                                 Electronic Tax Law Assistance Program
                               Responses Are Timely and Generally Accurate



The IRS encourages taxpayers to first try other options, such as Frequently Asked Questions,
Tax Trails,1 and searching the web site for information using its search feature. If the taxpayer
still needs help, the IRS states it can answer the tax question through email.
The IRS then provides instructions on how to submit the question and a listing of tax law
categories to choose from when submitting the question. The taxpayer types his or her email
address and question into the form and clicks the “Submit” button. The question is routed to a
vendor that collects the questions and submits them to the IRS.
As part of a corrective action from a prior Treasury Inspector General for Tax Administration
(TIGTA) audit, the IRS implemented an acknowledgement system.2 The IRS acknowledges the
receipt of questions submitted through the ETLA Program by emailing taxpayers. The IRS’
acknowledgement email states:
         IRS Email Tax Law Assistance Acknowledgement
         We have received the inquiry you submitted through our web site at
         http://www.IRS.gov. We will respond as quickly as our resources allow.
         Thank you for using our service. If you have another question, please return to
         our web site at: http://www.irs.gov to submit it.
Once the IRS receives the questions from the vendor, the questions are downloaded to the IRS
computer program called “MailMan Version 6.0, IRS Email Support System.”3 Next, questions
are routed to four file servers in Austin, Texas. The file servers distribute the workload by tax
law category to assistors who create the responses and email them to the taxpayers.
The ETLA Program is designed to allow assistors to pull responses from a database of
pre-prepared answers to save time researching and responding to frequently asked questions.
The assistors that respond to emails also respond to taxpayers when they call the IRS toll-free
telephone lines for tax law assistance. The assistors work on emails in between taking telephone
calls. Assistors’ time devoted to responding to emails is approximate to 50 assistors working
full-time on the ETLA Program.
See Figure 1 for a flowchart of how emails are routed through the ETLA Program.




1
  Frequently Asked Questions and Tax Trails are two services provided on IRS.gov. Tax Trails is an interactive
session which poses questions that you can answer by selecting Yes or No.
2
  Response Accuracy Is Higher for the Internet Program Than for Other Options Available to Taxpayers Needing
Assistance With Tax Law Questions (Reference Number 2003-40-014, dated October 2002).
3
  This system is used to control email receipts and answers for the ETLA Program and Referral Mail Program, a
similar program used by other IRS programs.
                                                                                                         Page 2
                                    Electronic Tax Law Assistance Program
                                  Responses Are Timely and Generally Accurate




                         Figure 1: ETLA Program Taxpayer Customer Service

    The taxpayer accesses                                            The IRS receives the email
                                       The vendor receives
    IRS.gov and locates                                              question from the vendor by
                                       the taxpayer’s question
    Help with Tax                                                    downloading it to the IRS
                                       and sends the taxpayer
    Questions under                                                  email support system.
                                       a pop-up message that
    “Contact Us” or “Site
                                       the question has been
    Map.” The taxpayer
                                       sent to the IRS.
    selects one of
    17 tax law categories,                                                                         The taxpayer receives
    types email address                                                                            acknowledgement of
    and question, and                                                                              receipt from the IRS,
    selects Submit.                                                                                usually within
                                                                                                   10 minutes.




                                The assistor accesses IRS computer
                                systems to obtain a pre-prepared
    The assistor then           written response or creates a
    emails the response to      response for the taxpayer based on
    the taxpayer.               information provided by the
                                taxpayer.


                                                                            Four file servers distribute the
                                                                            workload by tax law category to the
                                                                            IRS assistors.




Source: IRS Management; ETLA Program work process/walk through.

The volume of emails submitted through the ETLA Program has declined from about
119,000 emails in the 2002 Filing Season to about 31,000 emails in the 2005 Filing Season.4
See Figure 2 for email volumes for the most recent 4 years.




4
    The filing season is the period from January through mid-April when most individual income tax returns are filed.
                                                                                                                  Page 3
                             Electronic Tax Law Assistance Program
                           Responses Are Timely and Generally Accurate



            Figure 2: Number of Emails by Filing Season and Fiscal Year


               300,000                               278,940

               250,000           220,447
                                                                                           193,689
               200,000
                                           146,369                      151,372
               150,000 119,036
                                                               88,765
               100,000

                50,000                                                            30,898

                     0
                             2002                2003              2004               2005
                                           Filing Season        Fiscal Year



             Source: ETLA Program MailMan reports. Volumes shown are gross receipts.
             Fiscal Year 2005 results are projected.

The IRS’ decision to continue providing the ETLA Program for customers living in the United
States through its domestic website is under review at this time. It will continue to provide the
service for customers located overseas (i.e., taxpayers living abroad and military personnel)
because this is their only toll-free communication tool. The email service will also be offered
through the Military Assistance Portal.
Beginning in Fiscal Year 2004, the Customer Account Services Office, responsible for the
ETLA Program, began using the Embedded Quality measurement system to measure the
ETLA Program’s customer service. Embedded Quality links employee performance to
organizational results related to the quality of customer service. This method was designed to
distinguish between “wrong” answers and procedural errors that do not affect the accuracy of the
answer. Using various attributes, Centralized Quality Review Staff rates the email responses and
reports results using five quality measures (Customer Accuracy, Regulatory Accuracy,
Procedural Accuracy, Professionalism, and Timeliness).
This review was performed at the Customer Account Services Office, Wage and Investment
Division Headquarters, in Atlanta, Georgia, and the Centralized Quality Review Site in
Philadelphia, Pennsylvania, during the period January through June 2005. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




                                                                                                     Page 4
                                 Electronic Tax Law Assistance Program
                               Responses Are Timely and Generally Accurate




                                     Results of Review

Tax Law Questions Were Acknowledged and Answered Timely, and
Answers Were Generally Correct

For tax law questions anonymously submitted through the ETLA Program during the period
January 31 through April 8, 2005, the IRS provided acknowledgements and met its goal of
responding within 3 business days. In addition, questions were generally answered correctly and
the responses provided references to publications that could be used for further research.
However, the mass of information provided in some responses made it a challenge to find the
specific answers to the questions.

Tax law questions were acknowledged and answered timely

For tax law questions submitted through the ETLA Program, the IRS acknowledged all of the
157 questions.5 The IRS’ goal is to acknowledge all questions received through the
ETLA Program.
The IRS responded timely to 140 (89 percent) of the 157 questions. The remaining
17 (11 percent) of the 157 responses were received on the fourth day after submission of the
questions. The IRS reports that it took 1.2 business days, on average, to respond to emails in the
2005 Filing Season, down from 4.2 and 3.1 business days in the 2003 and 2004 Filing Seasons.

Tax law questions were generally answered correctly

IRS assistors provided correct responses to 110 (70 percent) of the 157 tax law questions we
submitted. For the 2005 Filing Season, the IRS reported an 86 percent accuracy rate. The IRS
accuracy goal for the ETLA Program for Fiscal Year 2005 is 82 percent. The difference between
the TIGTA and IRS results is attributed to the different sampling methodologies and the sample
sizes. Because of these differences, we are not projecting our results. See Appendix IV for a
breakdown of the categories, sample sizes, and accuracy rate results by categories.



5
 We received responses for only 157 of 160 submitted tax law questions. The IRS has no record of having received
3 (2 percent) emails.
                                                                                                        Page 5
                             Electronic Tax Law Assistance Program
                           Responses Are Timely and Generally Accurate



The majority of responses contained general information from tax publications relating to the
subjects of our questions. Using the same methodology the IRS uses to score/rate
ETLA Program email responses, of the 157 responses:
•   One hundred and ten responses were correct:
    ο   Seventy-two (65 percent) of the 110 responses included some yes or no answers that
        specifically addressed the question or a response that was personalized yet included some
        pre-prepared language. For example:
           TIGTA Question: I was a student in 2003 and (did not work) had no earned
           income. In 2004, I started working, but did not have enough tax withheld.
           Will I owe a penalty because I did not make estimated tax payments?
           IRS Response: I presume you will owe more than $1,000 in tax, your filing
           status has not been changed since 2003, you owed no income tax in 2003,
           were a U.S. citizen for the entire year, are a calendar year tax, your tax return
           covers the entire 12 months of the year, you are not a farmer or fisherman,
           you did not retire nor were disabled in 2004, and your income was received
           evenly throughout the year. If any of my presumptions is [sic] incorrect
           please e-mail us back with the correct information. ****** No, you do not
           owe a penalty. You do not owe a penalty if you had no tax liability last year
           and you were a U.S. citizen or resident for the whole year. For this rule to
           apply, your tax year must have included all 12 months of the year.
           Reference: For additional information please see Publication 505 Tax
           Withholding and Estimated Tax page 40 which is available on our web site.
    ο Thirty-eight (35 percent) of 110 responses did not include yes or no answers but provided
      sufficient information for taxpayers to interpret the law and apply it to their situations.
      For example:
           TIGTA Question: I separated from my husband last year in May 2004. It
           was not a legal separation, where we signed any legal papers; we are still
           married, but we are still separated. I want to know if I can I file head of
           household on my 2004 tax return? We have a five year old son, he lives with
           me, and I fully support both of us. I will be claiming our son as my
           dependent.
           IRS Response: Generally, your marital status on the last day of the year
           determines your status for the entire year. If you are unmarried, or if you are
           legally separated from your spouse under a divorce or separate maintenance
           decree according to your state law, and you do not qualify for another filing
           status, your filing status is single.


                                                                                               Page 6
                             Electronic Tax Law Assistance Program
                           Responses Are Timely and Generally Accurate



           Generally, to qualify for head of household status, you must be unmarried and
           not entitled to file as a qualifying widow or widower with a dependent child.
           You must also have provided more than half the cost of maintaining as your
           home a household that was the main home for a qualifying person.
           You may also qualify for head of household status if you, though married, file
           a separate return, your spouse has not lived in your home during the last
           6 months of the tax year, and you provided more than half the cost of
           maintaining as your home a household that was the main home for a
           qualifying child for more than one half of your tax year.
           If you are married, you and your spouse may file a joint return or separate
           returns.
           If your spouse died in 2004 and you did not remarry before the end of the
           year, you may still file a joint return. This is the last year for which you may
           file a joint return with that spouse.
           If your spouse died during 2002 or 2003, you may be able to file as a
           qualifying widow or widower. To do this, you must meet all four of the
           following tests:
           1.   You were entitled to file a joint return with your spouse in the year he or
                she died. It does not matter whether you actually filed a joint return.
           2.   You did not remarry before the end of 2004.
           3.   You have a child, stepchild, adopted child, or foster child for whom you
                can claim a dependency exemption.
           4.   You paid more than half the cost of keeping up a home that was the main
                home for you and that child for the whole year.
           Reference: More detailed information on each filing status can be found in
           Publication Number 501, Exemptions, Standard Deduction, and Filing
           Information.
•   Forty-seven responses were incorrect because the assistor misapplied the tax law, did not
    include all information needed for the taxpayer to make his or her determination, or only
    referred the taxpayer to an IRS publication. For example:
       TIGTA Question: My grandmother retired from her job last year in 2004 and
       received a lump-sum distribution from her qualified Pension Plan. My
       grandmother passed and left me some of the money in her will. Do I have to
       include the money as income on my tax return and pay taxes?


                                                                                              Page 7
                             Electronic Tax Law Assistance Program
                           Responses Are Timely and Generally Accurate



       IRS Response: If your Grandmother received the distribution while she was
       living, the taxation of distribution would be taxable to her on her final return. If
       the distribution was paid to you as a beneficiary by the plan, it would be taxable
       to you. Reference: None provided.
ETLA Program management explained assistors are to provide sufficient information to
taxpayers so they can deduce or work out the answer to their questions. They do not want
assistors to give advice. IRS guidelines require assistors to use the same tools and reference
materials they use to respond to telephone inquiries. However,
assistors are instructed to use pre-prepared answers when               Assistors are to make the
appropriate to enhance the quality and consistency of responses.        taxpayer aware of the
The ETLA Program maintains a database that contains                     criteria used to answer the
pre-prepared answers that provide general information on a large        question. It is the
variety of topics and others that address specific issues. The          taxpayer’s decision how to
                                                                        file his or her tax return.
pre-prepared answers consist of the TeleTax Topics and
Frequently Asked Questions developed from inquiries received
in prior years, and others developed to address specific issues. Guidelines state answers are to be
complete and accurate without overwhelming the taxpayer with unnecessary information.
When responding to emails, assistors are faced with the challenge of trying to understand
taxpayers’ questions and all the tax related implications. Assistors’ training focuses on how to
respond to taxpayers that call the IRS with questions on tax issues; this allows for back and forth
interaction between the assistors and taxpayers. Emails do not allow for that type of interaction
and, to compensate, assistors must make assumptions. Assumptions are subjective based on the
interpretation of the questions and assistors’ experience and skill levels. At times, making
assumptions allows the assistor to respond more directly to the question, but can lead to an
incorrect response.
Although the IRS may limit the ETLA Program in Fiscal Year 2006 to customers living outside
the United States, it is still important to ensure that it provides accurate responses to taxpayers
that choose to use the service. Inaccurate responses increase the risk taxpayers will use the
information and prepare inaccurate tax returns. This risk increases when taxpayers share their
ETLA Program responses with other taxpayers, multiplying the effect of the error.

Conclusion

The complexity of the tax law and one-way interaction make it a challenge to provide a yes or no
answer to a written tax law question. The ETLA Program was first implemented and funded as a
user friendly self-help desk. It was envisioned to be an interactive system that would prompt the




                                                                                              Page 8
                                 Electronic Tax Law Assistance Program
                               Responses Are Timely and Generally Accurate



user to answer targeted questions to tailor the response to each taxpayer’s specific facts and
circumstances. Instead it has evolved into a manual search engine.6
In the National Taxpayer Advocate 2004 Report to Congress, the National Taxpayer Advocate
expressed concern the IRS is no longer supporting the ETLA Program in its current format and
stated the IRS needs to analyze the ETLA Program and provide an accessible product geared
toward the needs of taxpayers. According to the IRS, it costs more to respond to taxpayers’
questions using the ETLA Program than the telephone. This is understandable, since the
assistors must make multiple assumptions when responding to most questions. The
ETLA Program is not a self-service application and competes with IRS toll-free service for
limited resources.
We are making no recommendations at this time because the IRS is reviewing whether it will
continue to provide this service to domestic taxpayers and the IRS reported it has initiated a
project to evaluate the applicability of Natural Language search engine technology. The IRS is
hoping this technology will improve the accuracy of self-service queries and allow for a
user-friendly, interactive interface for the ETLA Program. As the IRS moves toward
self-service, it needs to revisit the ETLA Program.




6
 A search engine is a computer program that retrieves documents, files, or data from a database or from a computer
network (especially from the Internet).




                                                                                                          Page 9
                                    Electronic Tax Law Assistance Program
                                  Responses Are Timely and Generally Accurate



                                                                                                    Appendix I


            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) provides quality service through its Electronic Tax Law Assistance (ETLA) Program,
including providing correct and timely answers to tax law questions submitted by taxpayers. To
accomplish this objective, we:
I.         Determined if the IRS accurately and timely responded to tax law questions submitted by
           taxpayers through the ETLA Program.
II.        Identified the sample size based on the volume of email submissions made during the
           2004 Filing Season.1 We calculated our sample size of 160 questions based on a
           5 percent precision, an 18 percent IRS error rate (the accuracy goal for the ETLA
           Program is 82 percent), and a 90 percent confidence level. To the extent possible, we
           used questions developed for the Treasury Inspector General for Tax Administration
           Taxpayer Assistance Center reviews to leverage our experience with the tax law. The
           questions were distributed across the most widely used ETLA Program categories based
           on email submissions reported by the IRS for the 2004 Filing Season. Since we did not
           include all categories of email submissions, we cannot project our sample results.
           A. Set up email accounts using free email services on the Internet and anonymously
              submitted tax law questions typical of those that may be submitted by an individual
              taxpayer during the period January through April 2005.
           B. Analyzed answers received for accuracy and timeliness.
III.       Determined if all submitted taxpayer tax law questions were received and whether
           responses were provided to all questions received.
IV.        Interviewed management to determine why responses were not accurate and timely.
V.         Determined why the IRS relocated the ETLA web site by discussing the move with
           management and determined future plans of the ETLA Program.




1
    The filing season is the period from January through mid-April when most individual income tax returns are filed.

                                                                                                             Page 10
                           Electronic Tax Law Assistance Program
                         Responses Are Timely and Generally Accurate



                                                                              Appendix II

                 Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
Kathy Henderson, Lead Auditor
Lynn Faulkner, Senior Auditor
Jerry Douglas, Auditor




                                                                                         Page 11
                          Electronic Tax Law Assistance Program
                        Responses Are Timely and Generally Accurate



                                                                       Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services SE:W:CAS
Acting Director, Strategy and Finance SE:W:S
Director, Customer Assistance, Relationships, and Education SE:W:CAR
Director, Field Assistance SE:W:CAR:FA
Acting Chief, Performance Improvement SE:W:S:PI
Acting Senior Operations Advisor SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M




                                                                             Page 12
                                    Electronic Tax Law Assistance Program
                                  Responses Are Timely and Generally Accurate



                                                                                                  Appendix IV

                 Electronic Tax Law Assistance Program
                   Accuracy Rate Results by Category

During the 2005 Filing Season,1 Treasury Inspector General for Tax Administration (TIGTA)
auditors anonymously submitted 160 tax law questions through the Internal Revenue Service
(IRS) Electronic Tax Law Assistance Program. The following table provides the sample sizes
and accuracy rates for the IRS’ statistical sample and the TIGTA’s sample. All percentages are
rounded.

                                                                        IRS                              TIGTA
                                                       IRS            Accuracy          TIGTA           Accuracy
    Category Name                                     Sample            Rate            Sample            Rate

    Capital Gains and Losses/Sale of Home                107              77%               21             52%
    Child Care Credit/Other Credits                       18              83%               18             83%
    Earned Income Credit                                  6              100%               4              50%
    Estate and Gift (Compliance)                          18              83%               3              67%
    Estimated Tax                                         8               88%               3              100%
    Filing Information/Status                             38              82%               29             62%
    Individual Retirement Arrangement                     26              88%               8              12%
    Interest/Dividends/Other Income                       22              73%               10             90%
    Itemized/Standard Deductions                          54              89%               26             81%
    Pensions/Annuity                                      20              70%               5              100%
    Small Business/Self-Employed, Etc.                   135              97%               26             77%
    Social Security Income                                8               63%               4              75%
    Totals                                               460              85%              157             70%

Source: IRS and TIGTA analysis. Filing Season 2005 accuracy rates for 12 of 17 tax law categories.




1
    The filing season is the period from January through mid-April when most individual income tax returns are filed.

                                                                                                             Page 13
           Electronic Tax Law Assistance Program
         Responses Are Timely and Generally Accurate



                                                 Appendix V


Management’s Response to the Draft Report




                                                       Page 14
  Electronic Tax Law Assistance Program
Responses Are Timely and Generally Accurate




                                              Page 15
